TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Fiscal Year 2007 Review of Compliance With
                Legal Guidelines When Conducting Seizures
                           of Taxpayers’ Property



                                            July 3, 2007

                              Reference Number: 2007-30-109




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   July 3, 2007


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION



 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2007 Review of Compliance With
                               Legal Guidelines When Conducting Seizures of Taxpayers’ Property
                               (Audit # 200630034)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) compliance
 with legal guidelines when conducting seizures. The overall objective of this review was to
 determine whether seizures conducted by the IRS complied with legal provisions set forth in
 Internal Revenue Code (I.R.C.) Sections (§§) 6330 through 6344 (1994 & Supp. IV 1998) and
 with the IRS’ own internal procedures. It was not intended to determine whether the decision to
 seize was appropriate or to identify the cause of any violations.

 Impact on the Taxpayer
 To ensure taxpayers’ rights are protected, the IRS Restructuring and Reform Act of 19981
 amended the seizure provisions in I.R.C. §§ 6330 through 6344. The IRS did not always comply
 with these statutory requirements. Although we did not identify instances in which taxpayers
 were adversely affected, not fully complying with I.R.C. requirements could result in abuses of
 taxpayers’ rights.




 1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                    Fiscal Year 2007 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property




Synopsis
The Treasury Inspector General for Tax Administration is required under
I.R.C. § 7803(d)(1)(A)(iv) (Supp. IV 1998) to annually evaluate the IRS’ compliance with the
legal seizure provisions to ensure taxpayers’ rights were not violated while seizures were being
conducted. We have evaluated the IRS’ compliance with the seizure provisions since Fiscal
Year 1999.
We reviewed a random sample of 50 of 508 seizures conducted between July 1, 2005, and
June 30, 2006, to determine whether the IRS is complying with numerous legal and internal
guidelines when conducting seizures. The IRS followed the guidelines in the majority of
instances; however, in 15 seizures, we identified 17 instances in which the IRS did not fully
comply with a particular I.R.C. requirement. While we did not identify any instances in which
the taxpayers were adversely affected, not following legal and internal guidelines could result in
abuses of taxpayers’ rights. The 17 instances included:
    •    Seven seizures in which expenses and proceeds resulting from the seizures were not
         properly applied to the taxpayers’ accounts. (I.R.C. § 6342(a)).
    •    Six seizures in which sales proceeds were applied to taxpayers’ liabilities, but the
         required balance-due letters sent to the taxpayers did not show the correct new balance.
         (I.R.C. § 6340(c)).
    •    Four seizures in which the name of the purchaser of the seized property was disclosed to
         the taxpayer. (I.R.C. § 6340(c)).
In addition, we identified an area in which internal controls for sales of seized property can be
improved to help prevent possible abuses of taxpayers’ rights. Internal Revenue Manual
procedures require the Property Appraisal and Liquidation Specialist2 to conduct sales of seized
property and be assisted by at least one other IRS employee, who may not be in the revenue
officer series job classification. However, Internal Revenue Manual procedures do not provide
specific guidelines for documenting the assisting employee in the seizure case file or on any of
the sales documents, and there is no review procedure in place to determine compliance with this
procedure. We identified seven cases for which there was no documentation in the case file that
an IRS employee assisted the Property Appraisal and Liquidation Specialist with the sale.




2
  The Property Appraisal and Liquidation Specialists are responsible for managing and disposing of property after it
is seized by the revenue officers. They serve as the technical authority in appraising property proposed for seizure
and are responsible for planning, marketing, and coordinating the sale of the property.
                                                                                                                   2
                    Fiscal Year 2007 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property




Recommendations
We recommended the Director, Collection, Small Business/Self-Employed Division, require the
use of the Seized Property Sale Report (Form 2436) for all seizure expenses and proceeds
accounting including sales, releases, and redemptions3 and revise the Record of Seizure and Sale
(Record 21)4 so the name of the purchaser of the seized property does not appear on the
taxpayer’s copy of the form. The Director, Collection, Small Business/Self-Employed Division,
should revise the Internal Revenue Manual to include specific procedures for documenting in the
history sheets or in the case file the IRS employee who assisted the Property Appraisal and
Liquidation Specialist in the sale of seized property.

Response
IRS management agreed with our recommendations. The Director, Collection, Small
Business/Self-Employed Division, issued a memorandum on September 15, 2006, that reinforces
correct procedures for applying expenses and sale proceeds resulting from seizures and sales.
While the IRS memorandum did not require the use of Form 2436 for releases and redemptions,
it did reemphasize procedures for applying expenses and proceeds. We will reevaluate this issue
during the next annual seizure review. The Record 21 will also be revised so the name of the
purchaser of seized property does not appear on the taxpayer’s copy of the form. Finally, while
IRS management did not believe it necessary to revise the Internal Revenue Manual to improve
internal controls over the sale of seized property, they plan to revise the Form 2436 to include a
box to record the name of the employee assisting in the sale of seized property. We agree with
the IRS’ decision to revise the Form 2436. This revision will improve internal controls over the
sale of seized property. Management’s complete response to the draft report is included as
Appendix VII.
Copies of this report are also being sent to IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-5894.


3
  Seized property can be released to the taxpayer under a number of circumstances, including (1) the Federal
Government receives its interest in the property, (2) future collection potential is enhanced by the release, or
(3) release will facilitate the collection of the liability. Any person whose property has been seized can redeem the
property prior to a sale if the person pays the full amount of taxes, penalties, and interest due and any expenses of
the seizure and preparation for sale.
4
  Record 21 is a three-part form that documents various aspects of the seizure and sale process. It includes
information such as the assessments under which the seizure was made, description of the property seized,
information regarding the advertisement of the sale, the proceeds and expenses of the seizure and sale, and the date
on which the certificate of sale was issued and to whom.
                                                                                                                        3
                       Fiscal Year 2007 Review of Compliance With Legal Guidelines
                             When Conducting Seizures of Taxpayers’ Property




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Did Not Always Comply With
          Legal Provisions and Internal Procedures When Conducting Seizures........Page 3
                    Recommendations 1 and 2: ................................................Page 5

          Internal Guidelines for Conducting Seizures and Sales Can Be
          Improved .......................................................................................................Page 6
                    Recommendation 3:..........................................................Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Outcome Measures...............................................................Page 10
          Appendix V – Synopsis of Selected Legal Provisions for
          Conducting Seizures .....................................................................................Page 11
          Appendix VI – Prior Reports on Compliance With Seizure Procedures ......Page 14
          Appendix VII – Management’s Response to the Draft Report.....................Page 15
         Fiscal Year 2007 Review of Compliance With Legal Guidelines
               When Conducting Seizures of Taxpayers’ Property




                        Abbreviations

I.R.C.            Internal Revenue Code
IRS               Internal Revenue Service
                    Fiscal Year 2007 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property




                                              Background

The collection of unpaid tax by the Internal Revenue Service (IRS) generally begins with letters
to the taxpayer followed by telephone calls and personal contacts by an IRS employee. The
employees who make personal contacts are referred to as revenue officers. They consider the
taxpayer’s ability to pay the tax and discuss alternatives, such as installment payment agreements
or offers in compromise.1 If these actions have been taken and the taxpayer has not fully paid the
tax due, the revenue officer has the authority to take the taxpayer’s funds or property for the
payment of tax. Taking a taxpayer’s property for unpaid tax is commonly referred to as a
“seizure.”
To ensure taxpayer rights are protected, the IRS Restructuring and Reform Act of 19982
amended the seizure provisions in Internal Revenue Code (I.R.C.) Sections (§§) 6330 through
6344 (1994 & Supp. IV 1998). These provisions and the IRS’ internal procedures are very
specific regarding how a seizure should be performed. See Appendix V for a synopsis of the
applicable legal provisions.
The Treasury Inspector General for Tax Administration is required under
I.R.C. § 7803(d)(1)(A)(iv) (Supp. IV 1998) to annually evaluate the IRS’ compliance with
these legal seizure provisions. We have evaluated its compliance with the seizure provisions
since Fiscal Year 1999. See Appendix VI for a list of all prior audit reports issued on the
IRS’ compliance with seizure procedures.
Following enactment of the IRS Restructuring and Reform Act of 1998, the number of seizures
by the IRS decreased from 10,090 in Fiscal Year 1997 to 74 in Fiscal Year 2000. Although the
number of seizures has steadily increased since Fiscal Year 2000, the number of seizures in
Fiscal Year 2006 was still less than 6 percent of the number reported in Fiscal Year 1997. It is
unlikely the use of seizures will ever return to pre-1998 levels. Figure 1 illustrates the number of
seizures made over the past 10 fiscal years.




1
  An offer in compromise is a proposal by a taxpayer to settle an unpaid account(s) for less than the full amount of
the balance due.
2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                              Page 1
                   Fiscal Year 2007 Review of Compliance With Legal Guidelines
                         When Conducting Seizures of Taxpayers’ Property



                             Figure 1: IRS Seizures by Fiscal Year

          12,000
                    10,090
          10,000

           8,000

           6,000

           4,000
                             2,259
           2,000
                                                   234    296    399    440    512    590
                                     161    74
             -
                     1997    1998    1999   2000   2001   2002   2003   2004   2005   2006

        Source: IRS Data Books.

This review was performed at the Small Business/Self-Employed Division Headquarters in
New Carrollton, Maryland, during the period August 2006 through February 2007. This audit
focused on determining whether the IRS conducted seizures in compliance with legal and
internal procedures. It was not intended to determine whether the decision to seize was
appropriate or to identify the cause of any violations. The audit was conducted in accordance
with Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                             Page 2
                    Fiscal Year 2007 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property




                                       Results of Review

The Internal Revenue Service Did Not Always Comply With Legal
Provisions and Internal Procedures When Conducting Seizures
We reviewed a random sample of 50 of 508 seizures conducted between July 1, 2005, and
June 30, 2006, to determine whether the IRS is complying with numerous legal and internal
guidelines when conducting each seizure. The IRS followed the guidelines in the vast majority
of instances; however, in 15 seizures, we identified 17 instances in which the IRS did not comply
with a particular I.R.C. requirement. While we did not identify any instances in which the
taxpayers were adversely affected, not following the legal and internal guidelines could result in
abuses of taxpayers’ rights.
The 17 instances included:
    •    Seven seizures in which expenses and proceeds resulting from the seizures were not
         properly applied to the taxpayers’ accounts. (I.R.C. § 6342(a)).
    •    Six seizures in which sales proceeds were applied to taxpayers’ liabilities but the required
         balance-due letters sent to the taxpayers did not show the correct new balance.
         (I.R.C. § 6340(c)).
    •    Four seizures in which the name of the purchaser of the seized property was disclosed to
         the taxpayer. (I.R.C. § 6340(c)).

Expenses and proceeds resulting from seizures were not properly applied to the
taxpayers’ accounts
I.R.C. § 6342(a) states any money realized by seizure or by sale of seized property shall be
applied first against the expenses of the proceedings, then against any unpaid tax imposed by any
internal revenue law against the property seized and sold (for example, an excise tax), and finally
against the liability in respect to which the levy3 was made or the sale was conducted (the
accounts appearing on the Levy (Form 668-B)).
The Internal Revenue Manual requires the same order for applying the proceeds. It also states
that, because the I.R.C. requires funds realized under seizure and sale proceedings to be applied
first to the expenses of the levy and sale, the proceeds should be credited to the taxpayer’s


3
 To levy means to take property by legal authority to satisfy a tax debt. The IRS uses a levy as a tool to collect on
balance-due accounts that are not being voluntarily paid.
                                                                                                               Page 3
account using a Transaction Code4694, Designated Payment of Fees and Collection Costs, for
the amount of the expense. Seizure expenses and proceeds are posted to taxpayer accounts in
two ways. If the seizure results in a sale, the proceeds should be recorded on the Seized Property
Sale Report (Form 2436). Funds obtained h m a release or redemptionSof seized property will
be credited to the taxpayer's account using a general posting document.
 We identified two cases for which expenses of the seizures and sales were not charged to the
 taxpayers a c c o u n t . ] 1
I-



 We identified four other cases for which the proceeds h m the seizures were not posted to the
 taxpayers' accounts using a Transaction Code 694 for the amounts applicable to the expenses.
 The entire proceeds were entered using a Transaction Code 670, Subsequent Payment, which is
 used to record tax liability payments. The expenses of the seizures and sales were entered
 correctly using a Transaction Code 360, Fees and Collection Costs, in all four cases. 7  1
1                                                          1 Three of the four seizures were either
 released or redeemed prior to sale and as such did not require the use of Forms 2436.




 Taxpavers were not alwavs ~ m v i d e dwith the correct balances on the
 b a l a n d u e letters affer the a ~ ~ l i c a t i oofnsales ~roceeds
 When a sale is conducted, I.R.C. 6 6340(c) states the taxpayer shall be M s h e d a letter showing
 the amount of funds that was applied to the taxpayer's liability and the remaining balance of such
 liability. The Internal Revenue Manual requires the Technical Support function to send a wpy
 of the Form 2436 and include a letter that explains the Form (which shows how the proceeds
 were applied) and identifies the balance of each account after the application of proceeds h m
 the sale of seized property.
Of the 50 seizures we reviewed, 34 resulted in a sale of the seized property. Twelve of those
were recent sales, and the balancedue letters had not been sent at the time of our review. The
balance-due letter is required to be sent after the proceeds fiom the sale have been applied to the


  Transaction codes are used to identify transactions being processed to the IRS computer systems and to maintain a
history of actions posted to a taxpayer's account.
  Seized property can be released to the taxpayer under a number of circumstances, including (1) the Federal
Government receives its interest in the property, (2) future collection potential is enhanced by the release, or
(3) release will facilitate the coUection of the liability. Any person whose property has been seized can redeem the
property prior to a sale if the person pays the full amount of taxes, penalties, and interest due and any expenses of
the seizure and preparation for sale.
                                                                                                             Page 4
                    Fiscal Year 2007 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



taxpayer’s account. In the remaining 22 cases, we identified 6 cases in which the taxpayers were
provided an incorrect balance.

The name of the purchaser of the seized property was disclosed to the taxpayer
When a sale has been conducted, I.R.C. § 6340(c) requires that the taxpayer be furnished a
record of the sale and that the record provided to the taxpayer not include the purchaser’s name.
The purchaser’s name is not provided to help protect his or her identity and privacy. The
Internal Revenue Manual requires the Technical Support function to provide the taxpayer several
documents, including the Record of Seizure and Sale (Record 21),6 as a record of the sale. We
identified four cases in which the purchaser’s name was included on the Record 21 that was sent
to the taxpayer.

Recommendations
The Director, Collection, Small Business/Self-Employed Division, should:
Recommendation 1: Require the use of Form 2436 for all seizure expenses and proceeds
accounting including sales, releases, and redemptions. The Form contains the required entries
for expenses and proceeds as well as a summary section for expenses incurred.
         Management’s Response: IRS management agreed with the recommendation and
         advised they issued a memorandum on September 15, 2006, that reinforces correct
         procedures for applying expenses and sale proceeds resulting from seizures and sales.
         Office of Audit Comment: While the September 15, 2006, memorandum did not
         require the use of Form 2436 for releases and redemptions, it did reemphasize procedures
         for applying expenses and proceeds. We will reevaluate this issue during the next annual
         seizure review.
Recommendation 2: Revise the Record 21 so the name of the purchaser of the seized
property does not appear on the taxpayer’s copy of the form.
         Management’s Response: IRS management agreed with the recommendation and
         advised that they will revise the Record 21 so the name of the purchaser of seized
         property does not appear on the taxpayer’s copy of the form.




6
  Record 21 is a three-part form that documents various aspects of the seizure and sale process. It includes
information such as the assessments under which the seizure was made, description of the property seized,
information regarding the advertisement of the sale, the proceeds and expenses of the seizure and sale, and the date
on which the certificate of sale was issued and to whom.
                                                                                                             Page 5
                    Fiscal Year 2007 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



Internal Guidelines for Conducting Seizures and Sales Can Be
Improved
We identified an area in which internal controls for sales of seized property can be improved to
help prevent possible abuses of taxpayers’ rights. Internal Revenue Manual procedures require
the Property Appraisal and Liquidation Specialist7 to conduct sales of seized property assisted by
at least one other IRS employee, who may not be in the revenue officer series job classification.
However, Internal Revenue Manual procedures do not provide specific guidelines for
documenting the IRS employee who assisted in the sale in the seizure case file or on any of the
sales documents, and there is no review procedure in place to determine compliance with this
procedure. We identified seven cases for which there was no documentation in the case file that
an IRS employee assisted the Property Appraisal and Liquidation Specialist with the sale. The
requirement of having two employees participate in the sale is an effective control to make sure
required sales procedures are followed.

Recommendation
Recommendation 3: The Director, Collection, Small Business/Self-Employed Division,
should revise the Internal Revenue Manual to include specific procedures for documenting in the
history sheets or in the case file the IRS employee who assisted the Property Appraisal and
Liquidation Specialist in the sale of seized property.
         Management’s Response: While IRS management did not believe it necessary to
         revise the Internal Revenue Manual to improve internal controls over the sale of seized
         property, they plan to revise the Form 2436 to include a box to record the name of the
         employee assisting in the sale of seized property.
         Office of Audit Comment: We agree with the IRS’ decision to revise the Form 2436.
         This revision will improve internal controls over the sale of seized property.



7
  The Property Appraisal and Liquidation Specialists are responsible for managing and disposing of property after it
is seized by the revenue officers. They serve as the technical authority in appraising property proposed for seizure
and are responsible for planning, marketing, and coordinating the sale of the property.




                                                                                                            Page 6
                    Fiscal Year 2007 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether seizures conducted by the
IRS complied with legal provisions set forth in I.R.C. §§ 6330 through 6344
(1994 & Supp. IV 1998) and with the IRS’ own internal procedures.1 To accomplish our
objective, we:
I.      Obtained documentation of national guidelines provided to employees; identified IRS
        systems, policies, and practices for ensuring compliance with legal provisions and
        internal procedures related to seizures; and determined how these tools were used.
II.     Reviewed a random sample of 50 of the 508 seizures conducted by the IRS from
        July 1, 2005, through June 30, 2006. The seizures were reviewed to determine
        compliance with legal provisions and internal procedures and whether the proceeds and
        applicable expenses of the seizures and sales were properly recorded to taxpayers’
        accounts on the IRS’ main computer system. A random sample was used to ensure each
        of the 508 seizures had an equal chance of being selected.




1
 This audit focused on determining whether the IRS conducted seizures in compliance with these legal and internal
procedures. It was not intended to determine whether the decision to seize was appropriate or to identify the cause
of any violations.
                                                                                                            Page 7
                Fiscal Year 2007 Review of Compliance With Legal Guidelines
                      When Conducting Seizures of Taxpayers’ Property



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Amy L. Coleman, Audit Manager
Janis Zuika, Lead Auditor
Timothy Chriest, Senior Auditor




                                                                                        Page 8
                Fiscal Year 2007 Review of Compliance With Legal Guidelines
                      When Conducting Seizures of Taxpayers’ Property



                                                                           Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 9
                 Fiscal Year 2007 Review of Compliance With Legal Guidelines
                       When Conducting Seizures of Taxpayers’ Property



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   •   Taxpayer Rights and Entitlements – Potential; 15 taxpayers for whom the IRS did not
       comply with legal provisions and internal procedures when conducting seizures
       (see page 3).
   •   Taxpayer Rights and Entitlements – Potential; 7 taxpayers (2 of these 7 are also included
       in the 15 taxpayers above) for whom internal control guidelines for conducting seizure
       sales could be improved to help prevent possible abuses of taxpayers’ rights (see page 6).

Methodology Used to Measure the Reported Benefit:
We selected a random sample of 50 seizures from a population of 508 seizures conducted from
July 1, 2005, through June 30, 2006. A random sample was used to ensure each of the
508 seizures had an equal chance of being selected. While we did not identify any instances in
which the taxpayers were adversely affected, not following legal and internal guidelines or not
having internal controls could result in abuses of taxpayers’ rights.




                                                                                          Page 10
                     Fiscal Year 2007 Review of Compliance With Legal Guidelines
                           When Conducting Seizures of Taxpayers’ Property



                                                                                                     Appendix V

Synopsis of Selected Legal Provisions for Conducting
                      Seizures

I.R.C. § 6330 (Supp. IV 1998) requires the IRS to issue the taxpayer a notice of his or her right
to a hearing prior to seizure action. The notice must be (1) given in person, (2) left at the
taxpayer’s home or business, or (3) mailed certified-return receipt requested, no fewer than
30 days before the day of the seizure. The notice must explain in simple terms (1) the amount
owed, (2) the right to request a hearing during the 30-day period, and (3) the proposed action by
the IRS and the taxpayer’s rights with respect to such action.
The statute of limitations for collection is suspended from the time a taxpayer requests a hearing
and while such hearings and appeals are pending, except when the underlying tax liability is not
at issue in the appeal and the court determines the IRS has shown good cause not to suspend the
seizure. No limitation period may expire before 90 days after a final determination. These
procedures do not apply if the collection of tax is at risk.
I.R.C. § 6331 (1994 & Supp. IV 1998) authorizes the IRS to seize a taxpayer’s property for
unpaid tax after sending the taxpayer a 30-day notice of intent to levy.1 This section also
prohibits seizure (1) during a pending suit for the refund of any payment of a divisible tax,
(2) before a thorough investigation of the status of any property subject to seizure, or (3) while
either an offer in compromise2 or an installment agreement is being evaluated and, if necessary,
30 additional days for the taxpayer to appeal the rejection of the offer in compromise or
installment agreement.
I.R.C. § 6332 (1994 & Supp. IV 1998) requires a third party in possession of property subject to
seizure to surrender such property when a levy notice is received. It contains sanctions against
third parties that do not surrender such property when a levy notice is received.
I.R.C. § 6333 (1994 & Supp. IV 1998) requires a third party with control of books or records
containing evidence or statements relating to property subject to seizure to exhibit such books or
records to the IRS when a levy notice is received.
I.R.C. § 6334 (1994 & Supp. IV 1998) enumerates property exempt from seizure. The
exemption amounts are adjusted each year and included $7,040 for the period July 1 through


1
  A levy is a means to take property by legal authority to satisfy a tax debt. The IRS uses a levy as a tool to collect
on balance-due accounts that are not being voluntarily paid.
2
  An offer in compromise is a proposal by a taxpayer to settle an unpaid account(s) for less than the full amount of
the balance due.
                                                                                                               Page 11
                    Fiscal Year 2007 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



December 31, 2004, and $7,200 for the period January 1 through June 30, 2005, for fuel,
provisions, furniture, and personal effects; and $3,520 for the period July 1 through
December 31, 2004, and $3,600 for the period January 1 through June 30, 2005, for books and
tools necessary for business purposes. Also, any primary residence, not just the taxpayer’s, is
exempt from seizure when the amount owed is $5,000 or less. Seizure of the taxpayer’s
principal residence is allowed only with the approval of a United States District Court judge or
magistrate. Property used in an individual taxpayer’s business is exempt except with written
approval of the Area Office3 Director, and the seizure may be approved only if other assets are
not sufficient to pay the liability.
I.R.C. § 6335 (1994 & Supp. IV 1998) contains procedures for the sale of seized property.
Notice must be given to the taxpayer; the property must be advertised in the county newspaper or
posted at the nearest United States Postal Service office; and such notices shall specify the time,
place, manner, and conditions of sale. It requires the property be sold no fewer than 10 days or
more than 40 days from the time of giving public notice. Finally, this section expressly prohibits
selling seized property for less than the minimum bid.
I.R.C. § 6336 (Supp. IV 1998) contains procedures for the accelerated disposition of perishable
property. This is property such as fresh food products or any property that requires prohibitive
expenses to maintain during the normal sale time period. The property may either be sold
quickly or returned to the taxpayer in exchange for payment of a bond.
I.R.C. § 6337 (1994 & Supp. IV 1998) allows the taxpayer to redeem seized property prior to
sale by paying the amount due plus the expenses of the seizure. It also allows a taxpayer to
redeem real property within 180 days of the sale by paying the successful bidder the purchase
price plus 20 percent per annum interest.
I.R.C. § 6338 (1994 & Supp. IV 1998) requires the IRS to give purchasers of seized property a
certificate of sale upon full payment of the purchase price. This includes issuing a deed to real
property after expiration of the 180-day period required by I.R.C. § 6337. The deed is
exchanged for the certificate of sale issued at the time of the sale.
I.R.C. § 6339 (1994 & Supp. IV 1998) provides the legal effect of the certificate of sale for
personal property and the transfer deed for real property.
I.R.C. § 6340 (1994 & Supp. IV 1998) requires each Area Office to keep a record of all sales of
seized property. This record must include the tax for which such sale was made, the dates of
seizure and sale, the name of the party assessed, all proceedings in making such sale, the amount
of expenses, the names of the purchasers, and the date of the deed or certificate of sale of
personal property. The taxpayer will be furnished (1) the information above except the


3
 A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
                                                                                                            Page 12
                    Fiscal Year 2007 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



purchasers’ names, (2) the amount of such sale applied to the taxpayer’s liability, and (3) the
remaining balance of such liability.
I.R.C. § 6341 (1994 & Supp. IV 1998) allows expenses for all seizure and sale cases.
I.R.C. § 6342 (1994 & Supp. IV 1998) enumerates how the proceeds of a seizure and sale are to
be applied to a taxpayer’s account. Proceeds are applied first to the expenses of the seizure and
sale proceedings. Then, any remainder is applied to the taxpayer’s liability.
I.R.C. § 6343 (1994 & Supp. IV 1998) outlines various conditions under which a seizure may
be released and property returned to the taxpayer. These conditions include full payment of the
liability, determination of a wrongful seizure, financial hardship, etc. This section allows a
consent agreement between the United States and either the taxpayer or the National Taxpayer
Advocate4 when the return of seized property would be in the taxpayer’s best interest.
I.R.C. § 6344 (1994 & Supp. IV 1998) contains cross-references for I.R.C. §§ 6330 through
6344.
Public Law Number 105-206 (IRS Restructuring and Reform Act of 1998)5 § 3443 required
the IRS to implement a uniform asset disposal mechanism by July 22, 2000, for sales of seized
property under I.R.C. § 6335. This mechanism was designed to remove revenue officers from
participating in the sales of seized assets.




4
  The Taxpayer Advocate Service acts as an advocate for taxpayers within IRS operations. The National Taxpayer
Advocate and Local Taxpayer Advocates have the authority to issue a Taxpayer Assistance Order after determining
that a taxpayer is suffering or about to suffer a significant hardship as a result of the manner in which the internal
revenue laws are being applied.
5
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                             Page 13
                Fiscal Year 2007 Review of Compliance With Legal Guidelines
                      When Conducting Seizures of Taxpayers’ Property



                                                                             Appendix VI

          Prior Reports on Compliance With Seizure
                         Procedures

The Internal Revenue Service Needs to Improve Compliance with Legal and Internal Guidelines
When Taking Taxpayers’ Property for Unpaid Taxes (Reference Number 199910072, dated
September 1999).
The Internal Revenue Service Has Significantly Improved Compliance With Legal and Internal
Guidelines When Seizing Taxpayers’ Property (Reference Number 2000-10-114, dated
August 2000).
Letter Report: The Internal Revenue Service Complied With Legal and Internal Guidelines
When Seizing Property for Payment of Tax (Reference Number 2001-10-061, dated May 2001).
The Internal Revenue Service Has Taken Significant Actions, But Increased Oversight Is Needed
to Fully Implement the Uniform Asset Disposal Mechanism (Reference Number 2002-10-005,
dated November 2001).
The Internal Revenue Service Continues to Comply With the Law When Seizing Taxpayers’
Property (Reference Number 2002-40-155, dated August 2002).
Fiscal Year 2003 Statutory Audit of Compliance With Seizure Procedures (Reference
Number 2003-40-115, dated May 2003).
Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
Taxpayers’ Property (Reference Number 2004-30-149, dated August 2004).
Fiscal Year 2005 Review of Compliance With Legal Guidelines When Conducting Seizures of
Taxpayers’ Property (Reference Number 2005-30-091, dated June 2005).
Fiscal Year 2006 Review of Compliance With Legal Guidelines When Conducting Seizures of
Taxpayers’ Property (Reference Number 2006-30-113, dated August 9, 2006).




                                                                                      Page 14
    Fiscal Year 2007 Review of Compliance With Legal Guidelines
          When Conducting Seizures of Taxpayers’ Property



                                                   Appendix VII

Management’s Response to the Draft Report




                                                           Page 15
Fiscal Year 2007 Review of Compliance With Legal Guidelines
      When Conducting Seizures of Taxpayers’ Property




                                                       Page 16
Fiscal Year 2007 Review of Compliance With Legal Guidelines
      When Conducting Seizures of Taxpayers’ Property




                                                       Page 17
